<html>
<title> - BORIS NEMTSOV, 1959 2015: SEEKING JUSTICE, SECURING HIS LEGACY</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                   BORIS NEMTSOV, 1959	2015: SEEKING

                      JUSTICE, SECURING HIS LEGACY

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 28, 2018

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-2-1]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                             


                       Available via www.csce.gov
                       
                       
                       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-910 PDF               WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001     
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE
                                          
CHRISTOPHER H. SMITH, New Jersey,        ROGER F. WICKER, Mississippi,
Co-Chairman                              Chairman
ALCEE L. HASTINGS, Florida               BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama              JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                CORY GARDNER, Colorado
STEVE COHEN, Tennessee                   MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina           JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                 THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                    SHELDON WHITEHOUSE, Rhode Island
                                 
                         

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]
                                  
                                  
                   BORIS NEMTSOV, 1959-2015: SEEKING

                      JUSTICE, SECURING HIS LEGACY

                              ----------                              

                           February 28, 2018
                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     2

Hon. Jeanne Shaheen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    14

Hon. Christopher H. Smith, Co-Chairman, Commission on Security 
  and Cooperation in Europe......................................    19

Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe

                               WITNESSES

Zhanna Nemtsova, daughter of Boris Nemtsov.......................     3

Vladimir Kara-Murza, Chairman, Boris Nemtsov Foundation for 
  Freedom........................................................     5

Vadim Prokhorov, lawyer for the Nemtsov family...................     7

                                APPENDIX

Prepared statement of Hon. Roger F. Wicker.......................    29

Prepared statement of Hon. Benjamin L. Cardin....................    31

Prepared statement of Hon. Christopher H. Smith..................    33


                   BORIS NEMTSOV, 1959-2015: SEEKING
                      JUSTICE, SECURING HIS LEGACY

                              ----------                              


                           February 28, 2018

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 3:32 p.m. in Room 138, Dirksen 
Senate Office Building, Washington, DC, Hon. Roger F. Wicker, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Roger F. Wicker, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Christopher H. Smith, Co-Chairman, 
Commission on Security and Cooperation in Europe; Hon. Jeanne 
Shaheen, Commissioner, Commission on Security and Cooperation 
in Europe; and Hon. Cory Gardner, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present:  Zhanna Nemtsova, daughter of Boris 
Nemtsov; Vladimir Kara-Murza, Chairman, Boris Nemtsov 
Foundation for Freedom; and Vadim Prokhorov, lawyer for the 
Nemtsov family.

  HON. ROGER F. WICKER, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. If it seems that Senator Cardin and I are 
rushing, it's because we have a lot to do in an hour. Senator 
Cardin and I have a series of votes that begin at 4:30. I don't 
know if any House members are expected today, but Senator 
Cardin and I will have some brief comments and then we'll get 
to our witnesses.
    We're turning our attention in today's hearing to the loss 
of one of Russia's great democratic reformers, Boris Nemtsov, 
who was gunned down within sight of the Kremlin three years ago 
yesterday. Although the triggermen were apprehended and tried 
for their crime, the masterminds behind it have never been 
identified. Our witnesses today are people who knew Boris 
Nemtsov well. I stood behind them yesterday at the ceremony to 
rename a section of Wisconsin Avenue as Boris Nemtsov Plaza. I 
am very pleased that this hearing will focus on the legacy of 
Boris Nemtsov as Russians prepare to cast their votes in 
another presidential election next month.
    We are honored to have his daughter, Ms. Zhanna Nemtsova, 
join us and reflect on her father's work and the prospects for 
realizing his dream of a free and democratic Russia. Ms. 
Nemtsova is joined by someone who is no stranger to members of 
the Helsinki Commission nor in the halls of Congress, thanks to 
his tireless and courageous work for democracy in Russia. Mr. 
Vladimir Kara-Murza knows better than almost anyone about the 
intense and all-too-often lethal pressure being applied to 
brave Russians like him and Boris Nemtsov, who engage in 
opposition politics. Mr. Kara-Murza directed the documentary 
film, ``Nemtsov,'' a truly remarkable tribute to Boris, which 
opened in Nizhny Novgorod, and was screened in Moscow, St. 
Petersburg, and Washington, where many people in the room had a 
chance to see it. We're also very fortunate to have Mr. Vadim 
Prokhorov, the lawyer for the Nemtsov family, who's worked for 
years now to see the masterminds of this heinous act brought to 
justice.
    As I mentioned, yesterday our witnesses participated in the 
naming ceremony for the Boris Nemtsov Plaza. As an American, 
I'm proud that Washington held the very first such official 
memorial of Boris Nemtsov anywhere in the world. The Russian 
people should know that we will continue to build legislative 
monuments to their heroes here, until stone monuments can be 
built in Russia.
    Let me offer a word about the posters on display at the 
front of the room. They serve as a reminder that brave Russians 
have gathered on a regular basis to ask for justice for Boris 
Nemtsov. The photo of these flowers at the site of his murder 
could have been taken virtually any day in the past three 
years. Despite being removed every day the flowers are always 
replaced by the many people who revere the memory of Boris 
Nemtsov. I think these people deserve to be recognized for 
their devotion to democracy in Russia, and for their dedication 
to honoring one of Russia's great democratic leaders.
    I'll place the rest of my statement in the record and 
recognize my colleague and dear friend Senator Ben Cardin of 
Maryland.
    Senator Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, first, let me thank our Chairman, Senator 
Wicker, for calling this hearing. Senator Wicker's been one of 
the great champions in the United States Senate on human 
rights. And we're very proud of his leadership here on the 
Helsinki Commission. And it's very appropriate that we have 
this hearing in regards to Boris Nemtsov.
    I just really want to put this in context, Mr. Chairman, if 
I might. And that is, in Russia Mr. Putin uses an asymmetric 
arsenal of weapons in order to control his country, to oppress 
his people, and to interfere with the democratic principles of 
countries in Europe, and, as we've seen, in the United States 
in our 2016 elections. So this is a pattern of conduct. And I 
mentioned that we issued a report, and Damian Murphy of the 
Senate Foreign Relations Committee is here. He spent a year of 
his life writing this report on Mr. Putin and what he does in 
Russia, and the tools that he uses to compromise our way of 
life.
    He uses his military. We know that. We saw that in Ukraine. 
We see that in Georgia and Moldova. He uses financing of fringe 
parties. We've seen that in several countries, including 
France, financing a coup in Montenegro, cyberattacks in the 
United States, misinformation in Germany and the U.K., support 
for fringe groups, including corruption--he uses corruption of 
his oligarchs in Russia in order to finance his own operations, 
but then gets involved in corrupt enterprises in other 
countries, as has been documented in Italy and elsewhere, uses 
energy as a tool, which we saw, again, in Ukraine.
    I mention all that because he also uses murder. He also 
uses intimidation against his own people. And Boris Nemtsov was 
a victim of that violence. And it's very appropriate that we 
have this hearing.
    Mr. Chairman, I recall how Boris joined me for the 
screening of ``Justice for Sergei'' in November 2010, and 
almost immediately after was assaulted at the airport upon 
returning to Russia. He helped us in getting justice for Sergei 
Magnitsky, who was also a victim of Mr. Putin's violence in 
Russia. So this is not an isolated example. We have not yet had 
justice for Mr. Nemtsov.
    We know that the gunman who shot four bullets into Mr. 
Nemtsov's back served as a commander in the Chechen security 
forces under leader Ramzan Kadyrov, a close associate of 
Vladimir Putin. And while the gunman and his accomplices have 
been punished, the masterminds behind the assassinations have 
not been served justice. And I'm very pleased that we have our 
good friend Vladimir Kara-Murza here. Not once but twice they 
tried to poison him. And he's still here, and we're proud about 
that.
    My final point is this: Many of us have been very outspoken 
about our opposition to what Mr. Putin has done to his own 
people, to democratic countries in Europe, his interference in 
the Middle East, in Syria, his support for Iran, and his attack 
here in the United States. But let's make it clear, we're on 
the side of the Russian people. And we very much want to 
acknowledge the brave Russians who have stepped forward to try 
to return Russia to a country that respects the rights of all 
of its citizens.
    And following our chairman, I'll put the rest of my 
statement into the record and look forward to hearing from our 
witnesses.
    Mr. Wicker. Thank you very much, Senator Cardin.
    Ms. Nemtsova, you are going to be recognized first. We were 
delighted to hear from you yesterday at the Boris Nemtsov Plaza 
naming ceremony, and we're delighted to hear from you today. So 
please proceed.

           ZHANNA NEMTSOVA, DAUGHTER OF BORIS NEMTSOV

    Ms. Nemtsova. Thank you, Mr. Chairman, members of the 
commission. I would like to first of all thank you for holding 
this important and timely hearing, and for the opportunity to 
testify before you today.
    As I have already said, it has been three years since my 
father, Boris Nemtsov, was gunned down on Bolshoi Moskvoretsky 
Bridge in the shadow of the Kremlin walls. And for three years, 
the official investigation has failed to shed light on the 
circumstances of the most high-profile political assassination 
in modern Russia.
    Yes, the perpetrators were quickly found, detained, put on 
trial, convicted, and sent to prison. But two key questions 
remain unanswered.
    The first is the motive behind the murder of my father. The 
investigative team and the court were silent on this. In Russia 
and across the world, politicians and experts and the general 
public understand that it was a politically motivated murder 
aimed at stopping my father's activities in the Russian 
opposition. The headlines that ran just after his murder read, 
``The most outspoken critic of Vladimir Putin was killed in 
Moscow.''
    Why don't the Russian authorities admit that this brutal 
murder was politically motivated? The answer is clear: If they 
recognized this, they could no longer say that the real 
opposition leaders--and I want today to stress the word 
``real,'' meaning those not dependent upon the Kremlin and its 
orders--are not repressed. In other words, they would have 
admitted on the official level that Russia is a country where 
the state engages in repression of opposition activities, from 
imprisoning to torturing to murdering political opponents. And 
this would, of course, have drawn a clear line between the 
permitted opposition that is allowed to criticize the 
authorities to a certain extent--for example, who pretend to be 
Putin's competitors in the upcoming presidential election--and 
the so-called non-systemic opposition that is outside of the 
Kremlin's control, and that not only advocates for democratic 
values but actually does real work, like publishing 
investigative reports on grand corruption in Putin's elite, as 
my father also did; those who lead mass anti-government 
protests, as my father did; and those who aspire to win the 
support of the majority of Russians, as my father did.
    On several occasions I filed applications to reclassify 
this murder as the assassination of a political leader and 
statesman. This effort has not brought results so far, though 
even from the formal point of view my father was a member of 
the Yaroslavl regional parliament at the time he was killed.
    The second question that remains unanswered concerns the 
organizers and masterminds of the crime. Not a single organizer 
or mastermind has so far been found and brought to justice, not 
even low-level people from Chechen leader Ramzan Kadyrov's 
inner circle. They enjoy the protection of the Russian state, 
and we have to bear in mind that this cover-up is a crime in 
itself. The reluctance to bring the organizers and masterminds 
to justice is very concerning. It seems that the authorities 
are either afraid of Kadyrov and his 30,000-strong army--if we 
presume that Kadyrov is the ultimate mastermind--or it is a 
combination of fear of Kadyrov and an attempt to hide 
something--for example, the direct involvement of Russian 
secret services and top-ranking Russian officials in the 
murder. And this lack of information is the best grounds for 
speculation.
    If the Russian state is interested in proving that Putin 
holds no direct responsibility--and they are insistent on 
this--why don't they allow a transparent and impartial 
investigation that can help end the speculation? They have all 
the legal tools to do so, since there is a separate criminal 
case on the organizers that can be acted upon at any time.
    In the past three years the Russian authorities have tried 
to erase the memory of my father and to end the public debate 
concerning the low quality of the investigation. They have 
failed. They have failed in part because of the international 
attention to this case and the recently launched special report 
at the Parliamentary Assembly of the Council of Europe.
    Today I am asking you to help launch a similar procedure at 
the Organization for Security and Cooperation in Europe. And I 
strongly believe that this can help at least to reveal some of 
the details and to compel the Russian Government to react.
    Thank you.
    Mr. Wicker. Thank you very much, Ms. Nemtsova. We very much 
appreciate it, as we appreciate your attendance at the memorial 
yesterday.
    The chair now recognizes Mr. Kara-Murza for his testimony. 
You are welcome, sir. Welcome back.

  VLADIMIR KARA-MURZA, CHAIRMAN, BORIS NEMTSOV FOUNDATION FOR 
                            FREEDOM

    Mr. Kara-Murza. Thank you. Thank you, Mr. Chairman. It's 
good to be back.
    Chairman Wicker, Ranking Member Cardin, Senator Shaheen, 
Senator Gardner, thank you for holding this important hearing 
and for the opportunity to testify.
    As you just mentioned, Mr. Chairman--and, of course, you 
were there with us yourself--yesterday afternoon the family, 
friends, and colleagues of Boris Nemtsov gathered here in 
Washington for the unveiling of the world's first official 
memorial to him. By a law enacted in the District of Columbia, 
the block in front of the Russian Embassy in Washington was 
designated as Boris Nemtsov Plaza. This decision followed 
earlier initiatives here in Congress, and I want to take this 
opportunity to thank members of this Commission who had 
supported them: you, Chairman Wicker; Senator Shaheen; Senator 
Rubio; Senator Gardner; and Representative Cohen. Thank you.
    It is a sad reflection on the situation in our country that 
the first official commemoration for a Russian statesman was 
held in the United States. But what happened in this city 
yesterday is important for many people in Russia. It is 
important for those who continue to hold remembrance marches, 
as thousands did again this past Sunday; bring flowers and 
candles to that bridge where he was killed; and stand guard 
over that unofficial memorial. It is important for people who 
continue Boris Nemtsov's work by exposing government 
corruption, by taking to the streets to protest Kremlin abuses, 
by speaking the truth about Vladimir Putin's regime. It is 
important for those who continue to believe in and fight for a 
democratic Russia. It is an affirmation that you can kill a 
human being, but you cannot kill what he stood for.
    For the past three years, the Russian authorities have 
fought the memory of Boris Nemtsov almost as hard as they had 
been fighting him. They blocked all public initiatives for 
commemoration, removed the signs installed by private citizens, 
repeatedly destroyed the makeshift memorial on that bridge, the 
photograph of which you have here in this room. But last week, 
as we were preparing for the unveiling of Boris Nemtsov Plaza 
in Washington, the Moscow city government announced that it is 
reversing its position, and that it will now allow the 
installation of a memorial plaque on the apartment building in 
Moscow where Boris Nemtsov lived. They have apparently realized 
how it looks when the U.S. capital is honoring a Russian 
statesman while the Russian capital is refusing to do so.
    Just as international involvement can help with the efforts 
to honor the memory of Boris Nemtsov, so it can with ending 
impunity for his killers. It has now been three years since the 
Russian opposition leader was assassinated on the bridge in 
front of the Kremlin, yet none of the organizers or masterminds 
of this crime have been identified or prosecuted.
    Last summer, the Moscow District Military Court convicted 
five people as perpetrators in the murder. The man convicted of 
pulling the trigger, Zaur Dadayev, was an officer in the 
Internal Troops of the Interior Ministry of the Russian 
Federation, serving in the Chechen Republic. Despite numerous 
requests by Zhanna Nemtsova and her lawyers, Dadayev's top 
superiors--the head of the Chechen Republic, Ramzan Kadyrov, 
and the commander of the Interior troops, General Viktor 
Zolotov--were not even formally questioned by investigators. 
The chairman of Russia's Investigative Committee, General 
Alexander Bastrykin, has twice vetoed attempts by his 
subordinates to indict a Kadyrov associate, Ruslan Geremeyev--
also an officer in the Internal Troops--as an organizer in the 
assassination.
    In a deliberate gesture, the Russian authorities have 
refused to classify the assassination of Boris Nemtsov, former 
member of Parliament, former regional governor, former deputy 
prime minister, and, at the time of the murder, leader of a 
political party and regional legislator, under Article 277 of 
the Russian Criminal Code, as ``encroachment on the life of a 
statesman or a public figure,'' instead choosing Article 105 
that deals with common murder.
    As state prosecutor Viktor Antipov told the court on July 
25, 2016, and I quote, ``We cannot allow for the murders of 
opposition members to be qualified under Article 277.''
    During the trial, the discussion of motive was largely 
absent, with questions relating to political reasons behind the 
murder repeatedly disallowed by the judge. Without questioning 
the obvious persons of interest, without identifying the 
motive, the organizers or the masterminds, the Russian 
authorities have declared this case, quote, ``solved.'' What 
they want now is to turn the page, forget, and move on.
    Please don't let them. Under our membership in the Council 
of Europe and the Organization for Security and Cooperation in 
Europe, Russian citizens are afforded the protections of 
international human-rights mechanisms. In May of last year, the 
Parliamentary Assembly of the Council of Europe appointed a 
special rapporteur with a mandate to review all aspects of the 
Nemtsov case. Today we are asking you to initiate a similar 
process under the auspices of the Organization for Security and 
Cooperation in Europe and its Parliamentary Assembly and to 
engage these mechanisms to conduct official oversight over the 
Russian legal proceedings, to shed light on their failures, 
accidental or deliberate, and on their political constraints, 
not to allow the Russian authorities to forget and move on, and 
to bring us closer to the day when all of those who had 
ordered, organized, and carried out the assassination of Boris 
Nemtsov are brought to justice.
    Thank you very much, and I look forward to your questions.
    Mr. Wicker. Thank you very much.
    And attorney Prokhorov, you are now recognized.

         VADIM PROKHOROV, LAWYER FOR THE NEMTSOV FAMILY

    Mr. Prokhorov. Mr. Chairman, members of the Commission, 
thank you for holding the hearing and for the invitation to 
testify.
    The official investigation of Boris Nemtsov's murder by the 
investigative committee of the Russian Federation and the 
subsequent judicial procedure deserve serious criticism.
    The Russian authorities are categorically refusing to 
recognize the fact that Nemtsov was murdered for his political 
activities. The investigators and the Moscow District Military 
Court have rejected almost all applications submitted by the 
lawyers of Zhanna Nemtsova, me and Ms. Olga Mikhailova, in 
particular the applications to reclassify the crime under 
Article 277 of the Criminal Code of Russian Federation as 
``encroachment on the life of a statesman or a public figure.'' 
The prosecution was brought under Article 105 of the Criminal 
Code, ``Murder''--as in the cases of, for example, domestic 
murder out of jealousy, murder for commercial reasons, et 
cetera. Meanwhile, the authorities have failed to officially 
identify the motive behind the murder of Boris Nemtsov.
    Five suspects were charged with the execution of the crime. 
All of them are natives of Chechnya, and some of them are close 
to Ramzan Kadyrov, the leader of Chechnya, and his entourage. 
The law enforcement agencies have not managed to detain any of 
the organizers or masterminds of the murder, and only some of 
the actual perpetrators have been detained.
    There is no doubt that the traces of this crime lead at the 
very least to the inner circle of Ramzan Kadyrov, and maybe 
even higher. We have requested a number of investigative 
actions; in particular, the interrogations of Ramzan Kadyrov; 
the brothers Adam and Alibek Delimkhanov; the director of the 
Federal National Guard Service, General Viktor Zolotov; and 
others. The head of the investigative group has rejected almost 
all of our requests, and the courts have also refused to 
satisfy the complaints of the victims in this case.
    During the jury trial at the Moscow District Military Court 
between October 2016 and June 2017, over 80 court sessions were 
held, dozens of witnesses were examined, and the case file 
amounted to over 95 volumes. At the same time, the victims were 
refused an opportunity to cross-examine a whole number of 
witnesses, including Ramzan Kadyrov and members of his inner 
circle. The court further refused to call General Viktor 
Zolotov, in whose command both the defendant, Zaur Dadayev, and 
his immediate superior, Ruslan Geremeyev, were at the time of 
the murder. In addition, General Viktor Zolotov was the 
longtime head of Vladimir Putin's personal security service and 
member of his inner circle. The presiding judge rejected a 
number of questions put before the witnesses by the victim's 
lawyers. Most of those questions were aimed at identifying the 
organizers and masterminds of the murder.
    On June 29, 2017, the jury convicted all of the defendants. 
On July 13, the court sentenced them to long terms of 
imprisonment, from 11 to 20 years. However, there are doubts 
with regard to the guilt of at least one of the defendants, 
Khamzat Bakhayev, as the prosecution has failed to present any 
evidence against him.
    On October 10, 2017, the Supreme Court of Russia has 
rejected the victim's appeal, as well as the appeals of the 
defendants.
    We believe that there has been a breach of the right to a 
fair trial for the following reasons:

        the inadequate classification of the crime;

        the failure to officially identify the motive behind 
        the crime;

        only some of the perpetrators have been brought to 
        justice;

        none of the organizers or masterminds have been 
        identified or prosecuted to date.

    The problem is not that the identification of suspects is 
difficult or impossible. Our principal concern is that the 
investigative authorities are not willing to make any effort to 
do so. We believe that this has been decreed to them by the 
official Russian 
authorities.
    In January 2016, the Investigative Committee separated the 
case against the unidentified organizers of the murder from the 
main case. The only individual named in this case is Ruslan 
Mukhudinov, a driver, whose whereabouts also remain unknown. We 
are not aware of any meaningful actions taken by the 
investigators under the separated case since January 2016.
    There is an imperative need to draw international attention 
to this issue. Unfortunately, we have a limited choice of legal 
tools to push the Russian authorities toward further steps 
aimed at investigating the assassination of Boris Nemtsov, but 
such tools are available.
    First and foremost, they are available within the framework 
of the international organizations of which Russia is a member, 
including the Organization for Security and Cooperation in 
Europe and the Council of Europe.
    In addition, I am asking Western political leaders, public 
figures, diplomats, and journalists, when they are meeting 
their Russian counterparts, to ask them every time about the 
failure to identify the organizers and masterminds of Boris 
Nemtsov's assassination. This must become an embarrassing issue 
for the Russian authorities internationally. This is the only 
way to move the case forward.
    Thank you so much.
    Mr. Wicker. How hard is it to embarrass the government of 
Russia, Mr. Prokhorov?
    Mr. Prokhorov. It seems to me that it's very important to 
try any real steps to make this an embarrassing issue for them. 
And they are very sensitive to the real attention paid from the 
official international organizations--for example, by the 
Parliamentary Assembly of Council of Europe, by the OSCE, and 
so on--because they have no real answers to the question, where 
are the organizers and masterminds? And what's the problem to 
identify them when you have such powerful secret services and 
powerful authority in your country?
    Mr. Wicker. Mr. Kara-Murza, let me ask you--if you'd like 
to follow up on that, that's helpful, but also to what extent 
is this case talked about throughout the Russian Federation? 
How widely is it known? Is it discussed in the print media? Is 
it discussed on the internet? Is it a matter of news? So if you 
could explain to us how what we're saying today and how the 
statement we made yesterday is disseminated, and help us 
understand to what extent this has gotten down to the 
grassroots of the Russian people.
    Mr. Kara-Murza. Thank you, Mr. Chairman. There is this 
dichotomy between the official picture that is created and 
maintained by the Kremlin's propaganda machine, by all of the 
state TV channels--all the national TV channels are now 
controlled by the state--and what's happening on the level of 
citizens and society. You know, for so many years the image 
that was put forward by Kremlin propaganda was that everybody 
in Russia loves and supports Vladimir Putin. And nobody cares 
about or supports the opposition.
    I remember when Boris was killed and when we had his 
funeral, the line of people--the line of Muscovites, who came 
to say their goodbyes stretched for miles, from the Yauza River 
to the Kursky railroad station, all the way down the Garden 
Ring for two or three miles long, and not all people even had 
time to say their goodbyes because we had to move on. And every 
year, including just this past Sunday, February 25th, thousands 
of people walk down the streets in Moscow, and many other 
cities and towns in Russia--often despite the official bans on 
such demonstrations and rallies--to commemorate and to honor 
and to remember Boris.
    And, of course, as you mentioned yourself, that memorial--
that unofficial memorial on the bridge has lived on for more 
than three years now. I was on that bridge about an hour after 
Boris was killed and there were already the first flowers there 
on the ground. People were already beginning to bring the 
flowers. And those flowers are there to this day, every day, 
despite the fact that several times--more than 70 times during 
these three years--the Russian authorities, the Moscow communal 
services with the help of the police, have come to destroy and 
pillage that memorial. The following morning, the flowers and 
the candles reappear. So the popular memory of Boris Nemtsov 
very much lives on.
    And those few remaining media outlets in Russia that have 
independent editorial control, that are not dependent on the 
state, in all of those media the main story yesterday was the 
first official commemoration for Boris Nemtsov in the world, 
the unveiling of Boris Nemtsov Plaza here in Washington. 
Actually, even state television felt compelled that they had to 
say something about it. Of course, half of what they said were 
lies, but that's the usual situation. Usually it's more than 
half. So I guess you could say that's a good thing. But even 
they had to mention it. So this is the kind of the contrast, I 
would say, that we have between what Russian citizens and what 
Russian society feels and the manipulated story that is 
presented in the official government media.
    And on your previous question, if I could comment very 
briefly, I do agree with what Vadim has said, that it is 
important to make this issue an issue of public attention and 
public embarrassment for the Kremlin. And I think what is also 
important is to introduce some sort of international 
accountability for the people involved. We know that this is a 
pale substitution for the real justice that needs to be done. 
But there is now--thanks to you and your colleagues in this 
Congress--there is now a mechanism that introduces a personal 
measure of responsibility for people who are engaged in these 
types of abuses.
    Two of the individuals that we have been talking about here 
today, General Alexander Bastrykin and Ramzan Kadyrov, are now 
designated by the United States Government as human rights 
abusers under the Magnitsky Act. We have, of course, here the 
original cosponsors of the Magnitsky Act, including the leader 
of it, Senator Ben Cardin. This is an absolutely crucial tool. 
In the absence of a real justice system in our country, this at 
least introduces some sort of responsibility for these people. 
It ends the impunity for these people. And as of today, there 
are now six countries in the world that have introduced their 
own versions of the Magnitsky Act. That's including the United 
States.
    And of course, the substance of that measure is that if you 
are, after reaching a very high standard of proof, designated 
by a government of a country as a human rights abuser, you will 
no longer be allowed to enjoy traveling to that country, owning 
assets in that country, receiving visas from that country, 
using its banking and financial system. Again, this is pale 
substitution for real justice. Punishment for murder should not 
be an inability to open a bank account somewhere. You should be 
tried and sentenced to prison. But in the absence of such a 
possibility in our country, this is the least we can do. So we 
hope that the United States Government continues to use the 
mechanism of the Magnitsky Act, including in the context of the 
Boris Nemtsov assassination case, to introduce at least some 
measure of accountability for the people who are responsible 
for this.
    Mr. Wicker. Ms. Nemtsova, let me just say how much I admire 
your dad. I met him some 21 years ago. He was first deputy 
prime minister. And I was there in a delegation led by Curt 
Weldon, representative from Pennsylvania, and Steny Hoyer, 
representative from Maryland. And I think our delegation, 
consisting of perhaps a dozen Americans, came away from that 
meeting so encouraged. We asked ourselves, is this the new face 
of the Russian leadership? And sadly, that was not to be.
    I really thought, because of his prominence, he might be 
immune from assassination. Did you and your father ever talk 
about the possibility of this sort of assassination?
    Ms. Nemtsova. Mr. Chairman, can I follow up on what the 
other witnesses have already said?
    Mr. Wicker. You surely may, yes.
    Ms. Nemtsova. Thank you. Because you asked an important 
question, whether we can embarrass the Russian Government. And 
I have clear evidence that we can. First of all, in 2015 I got 
an email from Anatoly Chubais. I don't know if you have met 
him. He was in the government, and now he's in charge of the 
state-owned company Rosnano, involved in development of high-
tech products.
    So, I got a letter from him. It was a big surprise. And he 
said: You shouldn't do three things. And one of them--one of 
the requirements was not to initiate an international 
investigation or oversight. And that's a clear sign that 
they're embarrassed. And when I got this letter I said, I will 
do all these things--directly opposite to what he said to me, 
not to insist on Ramzan Kadyrov's interrogation, et cetera, et 
cetera, to fire my lawyers. So I'm talking about this 
correspondence because it was made public by Anatoly Chubais.
    Second, when we started this procedure at the Parliamentary 
Assembly at the Council of Europe in early 2016--in January we 
were there, and we got lots of signatures under the motion for 
resolution, it took us one year to launch the procedure. And 
you know why? Because the Russian officials tried to block it. 
They tried to influence the president; his name is Pedro 
Agramunt from Spain. And they were very successful. And it was 
a miracle that we managed to put through this procedure. I 
think it passed by one vote in March 2017. So that's a clear 
sign that they are really embarrassed, and they don't want 
these hearings to be held here today.
    Secondly, your question about media coverage. First of all, 
there are official figures in the recent polls, and they show 
that 20 percent of Russians are not indifferent to what 
happened to my father and to his memory. That's a lot. They 
take into account this massive propaganda. And that's what I 
saw on the media. So regarding coverage, yesterday's event 
enjoyed substantial coverage in the Russian media and abroad. 
And also, of course, the still-existing independent media cover 
the case, and the fact that the case was not solved. And my 
third point is that for the third year, thousands of people in 
Moscow and in other Russian cities and in foreign cities, they 
took to the streets to commemorate my father--thousands of 
people. That's important.
    Regarding your question, yes, my father sometimes mentioned 
that--he understood that the risks were really high. And he 
also talked about the possibility that he might be killed. But 
he was not that sure. He believed that he could have been put 
into prison. And this risk, he regarded as a material one. But 
he also talked about the possibility of murder, not only with 
me but also with the press. But I don't think that he regarded 
it as a material risk. He talked about this, nonetheless.
    Mr. Wicker. Thank you.
    Senator Cardin.
    Mr. Cardin. Well, let me thank all three of you for just 
powerful testimony. And we all understand that this is the 
Helsinki Commission, and every signatory state has signed onto 
the Helsinki Principles, and that gives every member state the 
right to question the conduct of every other member state. We 
have that obligation and responsibility.
    So our objectives are to get Russia to do what's right, not 
for us to have to take action against Russia because they're 
doing what's wrong. So the purpose of the sanction law is for 
countries that do not do the responsible things. The Magnitsky 
law was passed because of the failure of the Russian 
authorities to bring the perpetrators of the tragedy against 
Sergei Magnitsky to justice. The Global Magnitsky Act applies 
universally to violations of human rights.
    And we're not finished yet. Congress passed additional 
sanction authority, some of which is mandatory, against Russia 
in regards to its defense and intelligence sector because of 
their activities against other countries and other individuals. 
We have obtained information in regards to the oligarchs. There 
was a public release, but there's also private information 
that's being used, because we know they finance the corruption 
within Russia which allows Mr. Putin to be able to do what he 
does. We have also looked at the financing of sovereign debt, 
as to whether we can affect Russia as far as its banking 
activities are concerned. We're looking at the energy sector 
and what can we do against the energy sector. So we're not 
finished yet. I want to make that clear.
    But I would like to get your view. How important is it to 
the cause of freedom in Russia the sanction activities that 
have been led by the United States Congress?
    Mr. Kara-Murza. Senator Cardin, thank you for this very 
important question, and thank you for all your work and all 
your efforts over the past now almost eight years since you 
first introduced the Magnitsky bill here to end the brazen 
impunity for human rights abusers.
    As you know, Boris Nemtsov came here many times, not just 
here in Washington but here to Capitol Hill, to meet with 
members, including yourself, including the chairman of the 
commission, to discuss the importance of precisely this 
process. And his attitude to sanctions was--and he said it both 
privately and publicly--``don't touch the country, punish the 
scoundrels.'' That is a direct quote from Boris Nemtsov.
    He viewed, as do I and as do many of our colleagues, that 
these sanctions should have a personal nature. Because it 
doesn't make much sense from our point of view to punish an 
entire country for the actions of a small, corrupt 
authoritarian clique sitting in the Kremlin. And as we all know 
very well, the current government of Russia, the regime of 
Vladimir Putin, is not a democratically elected government. If 
you read the reports from observers from OSCE and Council of 
Europe countries, we have not had a free and fair election in 
Russia since at least March of 2000.
    So, in our view--and this was the brilliance of the 
principle behind the Magnitsky Act--this was a revolutionary 
principle, in our view, in international relations, that you 
actually assign responsibility for human rights abuses where 
that responsibility is due: to their perpetrators, to the 
people who are doing these things.
    And, of course, the way it's so important and effective is 
because there is this fundamental hypocrisy, fundamental double 
standard at the heart of the Putin system of power, whereby the 
same people who violate and undermine and abuse the most basic 
norms of democratic society in Russia want to use the 
privileges and enjoy the privileges of democratic society in 
Western countries. They want to steal in Russia, but spend in 
the West. They want to send their kids to study in the West, 
open bank accounts in the West, buy real estate and luxury cars 
in the West. And the Magnitsky Act puts a stop to that. And we 
think it should, because on the part of the Putin regime and 
its officials and its oligarchs, this represents, as I 
mentioned, a massive hypocrisy. But on the part of Western 
countries who accept these people on their soil and in their 
banks, in my view that constitutes enabling--enabling of 
corruption and human rights abuse in Russia if you welcome 
those people on your soil.
    And so that is why it was so phenomenally important when 
more than five years ago now the United States became the first 
country in the world to put down this principle, that those 
people who deny their own citizens the fruits of democracy will 
no longer be allowed to enjoy them for themselves and for their 
families. And we hope that this process continues. We hope that 
many more human rights abusers--there are only a few dozen, as 
of today, people designated under the Russia-specific Magnitsky 
Act as human rights abusers here in the United States. It's 
very important that it now includes both General Alexander 
Bastrykin and Ramzan Kadyrov. But there are many, many others, 
as you know well, who deserve to be on that list. And it's 
heartening to see more and more democracies adopt the same 
principle.
    Last week I was in Copenhagen meeting members of the Danish 
Parliament, and we're hoping to convince them to do something 
similar, and there are other countries where they have those 
initiatives. And we hope that this law, the law that you 
authored, continues to be rigorously and fully implemented in 
the United States, and that those people who bear 
responsibility for human rights abuses will face some 
accountability for that.
    Mr. Cardin. I want you to know these bills were passed with 
strong bipartisan support. We have a very efficient and 
effective working relationship with the administration on the 
implementation of the Magnitsky sanctions. And the 
administration has been very open to information that we have 
made available, some of which has been provided to us by third-
party sources. And we invite you to continue to supply us with 
information as to those individuals that may very well be 
considered for additional sanctions.
    I do want to ask one more question if I might, Mr. 
Chairman, and that is, could you just tell us how is Mr. 
Nemtsov's murder handled by the Russian press? How did they 
handle the episode when it occurred, the trial, et cetera? 
You've indicated that it has a spin different than your facts. 
Could you just tell us how the Russian media has handled this?
    Mr. Kara-Murza. Thank you, Senator. That's a very important 
question. And I can give you the most recent example possible, 
and that is from yesterday. And yesterday when, as I mentioned 
earlier, the Russian state television channel, Rossiya 1, 
actually had a report on the unveiling of Boris Nemtsov Plaza 
here in Washington, the correspondent said that many of the 
speakers--and they included both senators and members of the 
House, including the chairman of the commission, Senator 
Wicker, who was with us yesterday--they did mention on the 
report that many of the speakers had called for holding those 
responsible who had committed this crime. And then they 
provided the comment: but those people are already being held 
responsible; they're all convicted and they were all sent to 
prison, and that is it.
    And this is a classic substitution here, because of course 
what people, including Chairman Wicker, were talking about 
yesterday at the ceremony is about the need to identify and 
prosecute the organizers and masterminds of this crime, because 
it is not enough. And as Vadim said, we don't think all of the 
perpetrators even have been brought to justice. But none of the 
organizers or masterminds have. And any expert in basic 
criminology will tell you that you cannot consider a crime 
solved unless you have punished those who ordered and organized 
it, and General Bastrykin has declared this crime solved.
    Mr. Cardin. But does the state media raise the issues of 
additional investigations being suggested or needed?
    Mr. Kara-Murza. Absolutely not. According to them, this 
case is closed. This is done. Forget about this. They want to 
forget and move on. And as Vadim and Zhanna have mentioned, the 
only tools we have for now--until we have a normal and real 
justice system in our own country--the only tool we have are 
those international mechanisms that are available either 
through the Council of Europe, which have already been enacted, 
or through the OSCE, which we are hoping you could help us 
initiate.
    And I want to make a very quick point to what you said 
earlier about the Magnitsky Act. On the day the U.S. House of 
Representatives passed the Magnitsky Act--this was November 
16th, 2012, the third anniversary of the death of Sergei 
Magnitsky, and as you said it was passed with a huge bipartisan 
majority--Boris Nemtsov and I were sitting on the balcony, on 
the gallery there in the U.S. House of Representatives, 
watching how members of the House were voting on this, and 
Boris said something that I'm always going to remember. He said 
this law, the Magnitsky Act, is the most pro-Russian law ever 
passed in any foreign country, because it targets those people 
who abuse the rights of Russian citizens and who steal the 
money of Russian taxpayers.
    Mr. Wicker. Senator Shaheen.

 HON. JEANNE SHAHEEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mrs. Shaheen. Thank you, Mr. Chairman.
    And thank you to each of you for being here and for your 
testimony.
    To go back to that sort of effort to identify the people 
who are perpetrating human rights violations and who are 
stealing from the Russian people, one of the things that I'm 
sure you all would agree is that Vladimir Putin and his 
associates have amassed a tremendous amount of wealth that 
belongs to the Russian people that they're using for 
themselves. And I'm curious about what the reaction would be of 
those oligarchs and of Putin if information about what they 
have stolen is produced publicly. One of the benefits, I think, 
to the list of oligarchs that was produced as a result of our 
sanctions law is that it does hold people up and say: These are 
people who have made a lot of money through questionable means. 
How would people react to that, both those people who are being 
targeted as well as the Russian people--to doing that kind of a 
``name and shame'' sort of thing?
    Mr. Kara-Murza. Thank you, Senator, for you question. Well, 
on this, we don't even need to guess, because we know the 
answer to your question. Almost a year ago now, in March of 
2017, the Anti-Corruption Foundation, which is headed by Alexey 
Navalny, produced a report--an investigation, it was a video, 
in fact, detailing the secret financial empire of Russian Prime 
Minister Dmitry Medvedev, showing his yachts, his villas, his 
vineyard in Italy, a lot of sneaker shoes for some reason--that 
was a big point of discussion at the time. And of course, if 
you watched Russian state television, you would not hear a 
single word about this, needless to say. And yet, more than 20 
million people in Russia watched that investigative video on 
YouTube. And tens of thousands went out to the streets to 
protest against this pervasive government corruption that is at 
the heart of the Putin system.
    And they went to the streets despite the threat of arrests. 
And indeed, many arrests were made. Despite the threat of 
sackings or expulsions from universities, and all the pressure 
that was applied. This issue really angers people, because it's 
really obvious. I mean, people realize this is their money that 
is being stolen and used in this fashion, to buy some 
government official a vineyard in Italy or whatever else. And 
so this is an issue that is actually really high up in public 
attention. It's also an issue that is very scary for the 
regime. And of course, they're trying to hush it up as much as 
they can. But any efforts to shed light on that, and to shed 
light on instances of corruption but also on the involvement of 
some of these people in foreign financial dealings and the 
assets they hold abroad--this, I think, frankly, is one of the 
most effective things that can be done, because I don't think 
any people would like their money being stolen in such a brazen 
fashion by the people who are supposedly there to guard their 
interests.
    But this is what these people are doing. They're stealing. 
They're stealing in Russia. And, again, they want to spend that 
stolen money in the West. So it is really important that the 
world's democracies put a stop to that practice.
    Ms. Nemtsova. May I add something?
    Mrs. Shaheen. Yes, please.
    Ms. Nemtsova. I have a lot. It's a whole list of additions 
to what you have said. Now, I would like just to add on the 
last point about the Kremlin list you were talking about, as 
far as I understand.
    People in Russia didn't get it. They didn't understand what 
was the reasoning behind this list, because some people 
appeared there who left Russia a decade ago. And they have 
nothing to do with Putin. Other people made their fortune not 
because they stole a lot of money--for example, Arkady Volozh 
who is the founder of Yandex. I am not advocating, but the 
reaction was like that.
    What was the reasoning behind this list? Why were these 
people included and others were not--for example, Anatoly 
Chubais or the head of the central bank, Elvira Nabiullina. So 
it needs clarification, otherwise I don't know whether it was 
harmful for the oligarchs. But as far as I know from talking to 
some people from business circles, they were happy that 
everybody was included. So there were not only 5 or 10 people, 
but a whole list. But experts in Russia, they are lost with 
this Kremlin list and with this step, and they don't know what 
to expect.
    And more broadly, I would like just to--your question, Mr. 
Cardin, was how sanctions bring democracy----
    Mr. Cardin. Before you do that, if Senator Shaheen would 
just yield for one moment, I couldn't agree with you more on 
the public list that was released by the administration on the 
oligarchs. It was a cut and paste of the Forbes  list. There's 
also a classified list that we cannot talk about. And many of 
us are trying to get the administration to carry out the intent 
of our statute, which was to have a greater understanding about 
the corruption within Russia and the key players in that 
corruption, some of the oligarchs. So we are following up on 
it, but I just want to make it clear to you there was also a 
classified list that was filed that is much more granular than 
the list that was made public.
    Mrs. Shaheen. And I think there was some question here in 
the United States, too, about the list that was released.
    Ms. Nemtsova. I know. It was all over the world. And your 
question was about sanctions and democracy--how sanctions can 
bring democracy. And empirical evidence in Russia and in other 
countries show that these two things are not related to each 
other. And especially broad sanctions cannot lead to any 
transition or any change. And I fully agree with what Vladimir 
has already said about personal sanctions. They are, of course, 
very harmful. And people who are in power in Russia or wealthy 
people--they, of course, will try to do something not to be on 
this sanction list.
    But we don't know the long-term influence of these personal 
sanctions because we don't know how much division they create 
among Putin's elite. Because this substantial divide could 
possibly facilitate change inside the elite. And we don't know, 
because we have a very closed system. And you just do things 
with your eyes shut sometimes. [Laughs.] Thank you.
    Mrs. Shaheen. One of the things that I, and I think others 
in the United States, have found troubling has been President 
Trump's unwillingness to identify Mr. Putin as a human rights 
violator, to call him out for the interference that has 
happened in our elections, for some of his other activities, to 
raise the issue of human rights with him. What kind of a 
message does that send to the people of Russia, that the 
president of the United States has been unwilling to go after 
Mr. Putin for his human rights violations?
    Mr. Kara-Murza. Thank you, Senator, for your question. 
Well, I think if you look back on the 18 years--almost 19 years 
now--that Mr. Putin has been in power, we have unfortunately 
seen a tradition of U.S. presidents--of either party--sending 
messages that sometimes really fell far short of what they 
should have been--if you'll allow me to say so. I remember 
President Bush who looked into Mr. Putin's eyes and got a sense 
of his soul. I remember President Obama who declared a reset 
and praised Mr. Putin for the great work he had done on behalf 
of the Russian people. So, in a way, that's an unfortunate 
tradition that has existed for some time.
    And it is very important that throughout all those years 
there was strong bipartisan leadership here in Congress, here 
on Capitol Hill, with initiatives such as the Magnitsky Act--
leadership in favor of standing firm on values, standing firm 
on such issues as democracy, human rights, rule of law, 
countering corruption. And I think Congress--and, again, both 
parties in Congress--have played a very important role in 
keeping the whole of the United States Government faithful on 
those issues. And we hope that this good tradition of strong 
bipartisan leadership on democracy and human rights continues, 
and as part of this general context that this case--the Nemtsov 
assassination case--is also given the proper attention that it 
deserves.
    Mrs. Shaheen. Thank you.
    Ms. Nemtsova. May I add something about Trump, if you don't 
mind? I know that Russia was the only country where Trump 
enjoyed the highest rate of support before the presidential 
election. I think his rate of support was around 80 percent. 
Not a single European country had the same figure of support 
for Trump. And it's the same story with all American 
presidents, because of course Putin was strongly in favor of 
Mr. Trump. And afterwards, when this situation with Russia's 
meddling into the election started to unfold, the propaganda 
changed its focus, and now they do not praise Mr. Trump 
anymore. And it was the same story with Obama, because they 
were saying, like, Obama is the best choice, never McCain. Then 
Obama got elected, then he got into conflicts with Russia, and 
then he was portrayed as evil. So that's the same. I think that 
Trump will have the same image in Russia.
    Mrs. Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wicker. I think we've gotten a lot into a brief hour. 
As I said, there will be a vote at 4:30, so let me just do this 
so we make sure we haven't omitted any really salient points.
    Let me start with Mr. Prokhorov, and then just go down the 
table and see if there are words of summary or some follow-up 
points that need to be made to everyone within the sound of our 
voices this afternoon. Mr. Prokhorov.
    Mr. Prokhorov. Thank you so much.
    First of all, I would like to come back to this idea about 
the importance of personal sanctions against those who violated 
human rights. By the way, it's a very, very dangerous activity 
in our country to support this idea. There are two persons from 
Russia who supported the adoption of Magnitsky Act: Mr. Boris 
Nemtsov, who was killed just near the Kremlin--it's impossible 
to be more near to the Kremlin than on the Bolshoi Moskvoretsky 
Bridge--and the second person is my friend, Vladimir Kara-
Murza, who is also present here. He was poisoned twice. It's a 
very dangerous, but it's a very important activity.
    And Boris Nemtsov, I remember that he often said that it's 
very important to pay attention to the reaction of the Russian 
authorities [to] some activities. For example, after the 
adoption of the Magnitsky Act, the reaction of the Russian 
authorities was hysterical. So it means that this process is 
quite powerful, and the influence of this Act is very, very 
high, and very, very important for us.
    And as to this case, I could only repeat that for us it's 
very important because we have very, very few real legal tools 
to force our Russian authorities to make any real steps towards 
those who organized and sponsored this crime. And we hope the 
help from international organizations, such as Organization for 
Security and Cooperation in Europe, maybe it's possible to 
start the procedure of a special representative, a special 
rapporteur. We are devoted to this case because it's very 
important to pay attention and to ask questions of our 
authorities.
    Thank you so much.
    Mr. Wicker. Mr. Kara-Murza.
    Mr. Kara-Murza. Thank you, Mr. Chairman.
    A couple years ago, Vyacheslav Volodin, who is now the 
speaker of the Duma--was then the deputy chief of staff at the 
Kremlin, Mr. Putin's deputy chief of staff--said on the record 
publicly a phrase, and I quote: ``There's no Russia without 
Putin.'' There is nothing more insulting that I can think of to 
say about our country.
    Unfortunately, too often some political leaders, experts, 
journalists in Western countries kind of implicitly accept that 
line, and blur the line between a country and a regime that 
misrules that country, and equates the whole of Russia with the 
Putin regime. Even on the level of language, even 
semantically--I know it may sound like a trivial point, but, 
people talk about Russian hacking, Russian aggression, Russian 
whatever, Russian abuses. That's not Russia. That's a small, 
authoritarian, unelected clique sitting in the Kremlin.
    Boris Nemtsov was Russian. He loved Russia. He was a 
Russian patriot. He dedicated his life to a free and democratic 
Russia, and he gave his life for Russia to one day be free and 
democratic.
    And so we would ask you, political leaders in Western 
democracies, both in North America and in Europe, to not equate 
Russia and the regime that is misruling it. And those 
thousands--tens of thousands of people who have been going out 
to the streets all across Russia in this past year to protest 
against the corruption and the abuses and the sham elections 
and all the rest of it, everything that's associated with the 
current regime, that's Russia too. And I think it's very 
important for our colleagues and counterparts in the democratic 
world to remember that.
    And I have absolutely no doubt, just as Boris was certain 
about this, that one day we will have a government in Russia 
that will both respect the rights of its own citizens and rule 
of law and democratic principles, and that will live at peace 
with its neighbors, and that will behave as a responsible 
member of the international community. And as we were saying 
yesterday at the unveiling ceremony, whatever people in the 
Kremlin think today, I have absolutely no doubt that there will 
come a time when the Russian state is proud that our embassy in 
Washington is standing on a street that is named after Boris 
Nemtsov.
    Mr. Wicker. Thank you very much.
    And if you have some follow-up comments, Ms. Nemtsova, 
you're welcome to say those at this point. Happily, our co-
chairman of the commission has arrived, and I'm going to turn 
the gavel over to him so that Senator Shaheen and I can go and 
vote. But at this point you're recognized to make any follow-up 
comments that you'd like to.
    Ms. Nemtsova. Thank you. I will try to keep it short, and 
it's really, really short just to sum up what has already been 
said.
     I read on Facebook--these are not my words--and it said: 
``Boris Nemtsov is becoming as important for Russia as Andrei 
Sakharov.'' And that's true. He is a young symbol and his 
importance is growing. Everybody in Russia and outside Russia 
admits this important fact. And he's the only one who can bring 
people together, different people who have different 
convictions or some different views on various things. And 
taking these two things into account, it's a shame that we 
don't have an investigation, and we have to put pressure to 
have a full and transparent investigation into my father's 
murder. Thank you.
    Mr. Wicker. Thank you.
    Co-Chairman Smith, you are recognized.

   HON. CHRIS SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman. Thank you. 
Good to see you, my good friend.
    I'm sorry I was late and I missed your testimonies. I was 
actually chairing a hearing on Zimbabwe. I chair the Africa, 
Global Health, Global Human Rights Committee, so I deeply 
apologize to you because I could not be here to hear all of 
your statements.
    And, Zhanna, thank you for your bravery in coming here. 
Your dad would certainly be proud that you are here. He was a 
colleague, and we all deeply respected him for his commitment 
to the rule of law, to human rights. So I just want to say that 
there's a true solidarity here.
    This commission, I've been on it since my second term in 
1983, and we have always raised the issues with what was then 
the Soviet Union and the East Bloc, and now Russia of course, 
because the day where democracy has broken out and flourished 
is still a hope, it's not a reality--particularly under Mr. 
Putin.
    You know, just a couple of questions because, again, I came 
late, so I missed the flow of what has already gone before me. 
But the Magnitsky Act was a huge breakthrough, in my opinion, 
and I think it's shared by many of my colleagues--to finally 
say we will hold individuals accountable. The Global Magnitsky, 
in like manner, is now a very useful tool against repressive 
regimes.
    I'm wondering if there's something more that we need to be 
doing, as a country. We have an OSCE Parliamentary Assembly 
meeting coming up in July, and we will meet with our Russian 
counterparts, or at least attempt to. And certainly we will 
raise this issue with them. You know, impunity becomes worse 
when these assassinations and killings go uninvestigated. And 
who calls the shots? Those people don't go to prison.
    So I would ask you for your recommendations to us, what we 
might do, and also, about the elections issue vis-a-vis Putin, 
Trump, whatever happened in the last election, I think, has 
chilled our ability. I can't get a visa to go to Russia. I was 
hoping to go a number of times. One time I met with the 
ambassador. It was all set, we thought. And because of the 
Magnitsky Act and the fact that I was the House sponsor of the 
Magnitsky Act, it precluded my getting a visa.
    During the worst years of the Soviet Union, I was able to 
get a visa. I went to Perm Camp 35 with Frank Wolf in the mid 
to late 1980s, where Sharansky had been and so many other great 
political prisoners. And yet now many of us find ourselves 
unable to even travel to Moscow. And frankly, if I could, I 
would. And I'll make a renewed request to go. And I would raise 
your dad's case, believe me, if we could get there.
    So we are in a very bad place, I think, with regards to 
Russia. But again, your recommendations on what you think we 
could do, and especially the OSCE Parliamentary Assembly, which 
will be in July?
    Mr. Kara-Murza. Thank you, Co-Chairman Smith, and thank you 
for your efforts and your leadership over the many years on 
issues of human rights and democracy, including with regard to 
our country.
    And, first of all, I think the fact that you have been 
placed under a travel ban by the current Kremlin regime, you 
should consider that as a badge of honor, as I know many people 
who have been placed under similar circumstances do. I know 
it's frustrating. It's inconvenient. But it is a badge of 
honor.
    But I think it also illustrates a wider picture, that some 
of the things in Russia today compare, in terms of domestic 
repression, to what it was in the late Soviet times, the time 
that you began to serve in this House. For example, even if 
we're talking about the numbers of political prisoners, even 
those are becoming very 
similar.
    In 1975, when Andrei Sakharov wrote his Nobel lecture, 
which he was not allowed to go to Oslo to deliver, he listed in 
it by name 126 prisoners of conscience in the Soviet Union. 
Today, according to the Memorial Human Rights Center, according 
to the latest report, we have 117 political prisoners in the 
Russian Federation. And that's a very conservative estimate. 
The number is probably much higher. But this is done using very 
restrictive criteria under Resolution 1900 of the Parliamentary 
Assembly of the Council of Europe. And even by that standard, 
we have more than 100 people.
    There are many other similarities. You know, all the main 
television channels serve as propaganda tools for the state. 
Parliament is a rubber stamp. We have no free and fair 
elections. But in some ways the situation is worse, because 
back then, back in the early 1980s, the period you just 
referred to, the most prominent political dissidents in Russia 
or the Soviet Union were in prison, in internal confinement or 
in forced exile--Sakharov, Solzhenitsyn, Bukovsky.
    Today the most prominent political dissident in Russia is 
dead. Three years ago yesterday, he was killed. Boris Nemtsov 
was killed on the bridge in front of the Kremlin. And so I 
think you're right to raise that comparison.
    And there's also another difference between that time and 
the time we're living in today. You know, when members of the 
Soviet Politburo were doing all of those things they were 
doing, putting people in prison for political reasons, 
censoring media and all the rest of it--they, the members of 
the Soviet Politburo, did not keep their money in Western 
banks. They didn't send their children to study in Western 
schools. They didn't buy real estate or luxury cars or yachts 
in Western democratic countries. These guys do.
    The oligarchs and the officials in the Putin regime do 
that. The same people who undermine and abuse and violate the 
most basic norms of democratic society in Russia want to use 
the privileges and the opportunities of democratic society in 
Western countries. They want to steal in Russia and spend in 
the West. And the Magnitsky Act, of which you were one of the 
co-sponsors in the House more than five years ago now, is an 
absolutely crucial and indispensable tool that puts--or at 
least begins to put--an end to this impunity and introduces 
some sort of personal measure of responsibility and 
accountability for these people in the absence of a real 
justice system in Russia.
    As we were discussing earlier, frankly, the Magnitsky Act 
is a pale substitute for real justice. I mean, if you kill or 
torture someone, your punishment should not be that you're not 
allowed to buy a house in Miami Beach. It should be that you're 
tried and convicted if you're guilty. But at least it's 
something. At least it's some sort of personal responsibility.
    So I want to thank you for your leadership on the Magnitsky 
Act and express my hope that this process, the implementation 
of the Magnitsky Act, now also the Global Magnitsky Act, 
because human rights are universal, so accountability for 
violating human rights should also be universal. We hope that 
process continues.
    And on your point about the specific recommendations, we 
may actually--all three of us, we may actually see you in 
Berlin in July for the summer meeting of the OSCE Parliamentary 
Assembly, because one of the things we're really hoping to try 
to do--and this is the reason it's so important for all of us 
to be here today--is to engage international oversight 
mechanisms over the official Russian investigation into the 
assassination of Boris Nemtsov, because we feel that that 
process has been inadequate, that it has been politically 
restricted.
    And today, more than three years after the leader of the 
Russian opposition was killed, none of the organizers or 
masterminds of this crime have been brought to justice or even 
identified. And there are many, many other problems that will 
now be part of this hearing record, because we have raised many 
of those issues in detail. I don't want to take up more of your 
time, but we are happy, especially Vadim, to address the legal 
details in this.
    So the only really effective tool, perhaps the only tool 
that we have available to us in this situation, is to engage 
international oversight. And thankfully, Russia is a member of 
international organizations that are founded on these 
principles of human rights and the rule of law--the Council of 
Europe. And there we already have an international oversight 
mechanism effected through the appointment of a special 
rapporteur at the Parliamentary Assembly of the Council of 
Europe. He was appointed last year with a mandate to review all 
the aspects of the Nemtsov case and shed light on the 
constraints and the limitations and the problems and the 
inadequacies.
    So now we are hoping, with your help, to initiate a similar 
procedure within the auspices of the Organization for Security 
and Cooperation in Europe and the Parliamentary Assembly of the 
Organization for Security and Cooperation in Europe; be it with 
the appointment of a special representative, be it with a 
public hearing that will start some kind of an oversight 
process, maybe the Moscow Mechanism.
    These are the things that you know everything about and I 
don't need to tell you anything about those. But it is really 
important to have some sort of oversight and to shed some sort 
of light internationally and to expose those problems and those 
restrictions and those limits, because as far as the Russian 
authorities are concerned, the Nemtsov case is solved and 
closed. They've had a trial of some of the perpetrators. 
They've sentenced them to prison. And according to them, this 
is done. Move on. Forget about it. Turn the page.
    We do not think that that is OK. We do not think that it's 
OK without identifying the motive, which they haven't done, 
without identifying the organizers and masterminds, which they 
haven't done, to say that this case is closed. And we are 
counting on international organizations. We are counting on our 
partners in these international organizations. And frankly, we 
are counting on you to engage this oversight and to make sure 
that there is no impunity for those who had ordered, organized 
and carried out the most high-profile political assassination 
in modern Russia.
    Ms. Nemtsova. Vladimir has already said everything, but my 
specific recommendation is that it's very easy to figure out 
what to do with the Russian authorities. You probably are aware 
what they are afraid of most. They're afraid of the sunshine. 
That means that they want to cover up everything. They want to 
end public debate on those issues which are sensitive for the 
Russian political 
leadership.
    And my father's case is one of the sensitive issues. And 
that's why it's important to bring it to the sunshine, to speak 
about it in the media especially, not only with your Russian 
counterparts, but also when the media outlets are there. So to 
talk about that publicly with your Russian counterparts, that's 
important, and that's embarrassing for them.
    And Vladimir raised a very important question, and now I'm 
talking not only on behalf of my father, but also on behalf of 
the Boris Nemtsov Foundation for Freedom which we founded in 
2015 in Germany--and Vladimir Kara-Murza is chairman of the 
board of trustees, so we have a program to support political 
prisoners and political refugees from Russia.
    It's a small program, but what we learned out of our 
experience is that if you create a lot of public resonance, a 
lot of public attention in the media--a lot of coverage--that 
helps a lot of those political refugees, and that's the only 
reason why some of them were released in Russia, including the 
latest case with Yury Dmitriev. He was released because of this 
unprecedented public attention, and it was the case with Ali 
Feruz, a journalist from Uzbekistan who our immigration service 
finally allowed to leave Russia, and now he is in Germany. They 
wanted to extradite him to Uzbekistan, and he would have been 
killed there--tortured, imprisoned and killed. So if you create 
this great media coverage and public debate, it helps, and it's 
proven.
    Mr. Smith. Let me ask you--for years I've been going to the 
UN Human Rights Council as a place where you get this much 
satisfaction because very often rogue nations sit on the Human 
Rights Council. The great reform that was supposed to take 
place didn't, but I do think it still provides a venue where 
human rights issues can be discussed, but consequences are 
often minimal. But it is an opportunity.
    And Russia's Universal Periodic Review comes up in May of 
2018, just a few months from now. I'm wondering if there has 
been any outreach? We certainly will be in contact with our 
team--our diplomatic team, starting with the Secretary of 
State, Rex Tillerson, Nikki Haley, and others who are a part of 
that effort. And I'm wondering if you have sought to get the 
issue of Boris Nemtsov discussed at the Human Rights Council, 
as Russia goes through that review of their record--or lack of 
good record--on human rights?
    And secondly, has there been any positive consequences or 
contact with Prince Zeid bin Ra'ad Zeid al-Hussein, the 
Jordanian High Commissioner for Human Rights, whom I've met 
with in the past? I've raised human rights issues with him, a 
lot of Russian human rights issues. Has he shown any sense 
that, on an extraordinarily high-profile case that speaks 
volumes for all the others, but in and of itself it's enough--
has he shown any willingness to engage when it comes to your 
dad?
    Ms. Nemtsova. So as far as I know, we didn't have a chance 
to talk about this case at the Human Rights Council of the 
United Nations, and I was at the United Nations, and I took a 
part last year in the Geneva Summit on Human Rights that is 
under the umbrella of the United Nations. And Vladimir went 
there this time, so we raised this issue, we talked about my 
father's case at the summit, but I learned--I talked to some 
people from the U.N., I learned that it would be very difficult 
to bring this issue today at United Nations Human Rights 
Council right now because of its composition.
    Mr. Smith. But I don't think we shouldn't do it for lack of 
a positive result. As you mentioned, media coverage, bringing 
the case in a very forceful way with facts and documentation 
could put the Russians in the hot seat. They're going to have 
to give an accounting for their human rights record, and 
members of that council can ask tough questions. And there are 
a number of European friends and partners that are on that 
council. We could ask tough questions as well.
    Ms. Nemtsova. Yes, that would be absolutely great if we can 
make connections with them. So far I haven't made any 
connections.
    Mr. Smith. What we'll do is put together this hearing 
record, which again lays out the case I think very powerfully--
because I did see your earlier statements, but I did not hear 
the oral testimony because of my own hearing on Zimbabwe.
    But I think we should do a letter to Prince Zeid, ask him 
to use his human rights apparatus--and he's got a huge 
bureaucracy that could delve into your father's assassination, 
and also ask member states on the Human Rights Council to raise 
it robustly with the Russians as they appear.
    Mr. Kara-Murza. Mr. Co-Chairman, if I can briefly add--
first of all, thank you for the suggestion, and you are 
absolutely right in that the basic human rights, of which the 
right to life is perhaps the most important one--which is the 
right that has been violated in the case of Boris Nemtsov--is 
of course protected by the Universal Declaration of Human 
Rights, so it does fall under the purview of the United 
Nations. You are absolutely right.
    And as Zhanna said, I was in Geneva last week for a forum, 
but also to meet with some of the diplomats from the democratic 
nations that are members of the U.N. Human Rights Council, 
including Canada, the U.S., European Union countries.
    Unfortunately, as you know very well, some of the members 
of the U.N. Human Rights Council have themselves been some of 
the worst human rights abusers, and that continues to be the 
case. But we're very grateful to you for that suggestion, and I 
think it's a very good idea to actually try to raise this case 
within the framework of the U.N. and with the help of the U.N. 
High Commissioner for Human Rights, whom you have mentioned. 
And we would be grateful for your assistance and leadership on 
that.
    And we also will continue the efforts within the framework 
of the Council of Europe and the Organization for Security and 
Cooperation in Europe, and of course the difference with those 
organizations, as opposed to the U.N. Human Rights Council, is 
that the vast majority of member states in those organizations 
are countries that respect democracy and the rule of law 
themselves.
    Mr. Smith. That's right.
    Mr. Kara-Murza. And so we really count on our international 
partners in this case to hold the current Russian Government to 
account on our country's international obligations on matters 
of human rights and rule of law under the European Convention 
on Human Rights, under the OSCE Copenhagen document, under the 
OSCE Moscow document, which is probably my personal favorite of 
all the international treaties, because that document states 
very clearly, black on white, that matters relating to human 
rights, fundamental freedoms, and the rule of law cannot be 
dismissed as, quote, unquote, ``internal affairs'' of that or 
other member state, and that they are subject to international 
concern, and that they are subject to concern by other member 
states. And we hope that our partners in the OSCE, including 
the United States, exercise their right to express that concern 
and exercise their ability to raise those issues in the 
international framework.
    Mr. Smith. Well, I can guarantee--we'll do a letter too and 
contact not only our own delegation, but also countries that I 
think--as you pointed out--you know, do have a firm grasp of 
what due process, rule of law, human rights really are all 
about because, again, forget about the rogue nations. They'll 
do anything but be asking hard questions.
    So that, during that Universal Periodic Review, Russia can 
give an accounting and hopefully be held to account, and maybe 
it could lead to some breakthrough somehow. And of course, at 
the OSCE Parliamentary Assembly and at the OSCE itself, we'll 
press it very hard. But we'll get on that right away. You have 
provided us with good, actionable information to take it even 
further, so we're very grateful for that.
    Mr. Prokhorov. Mr. Co-Chairman, as the lawyer for Zhanna 
Nemtsova--and by the way, I've been a lawyer of Boris Nemtsov 
himself for 14 years--and for us, it is absolutely clear that 
there is an imperative need to draw international attention to 
this issue. We have a very, very limited choice of legal tools 
in our country, in the framework of our legal system 
unfortunately.
    And I hope that maybe one of the most effective legal 
mechanisms from the international point of view is Organization 
for Security and Cooperation in Europe. If I am not mistaken, 
there will be some meetings, some conference in July----
    Mr. Smith. Yes.
    Mr. Prokhorov.----in Berlin.
    Mr. Smith. That's right.
    Mr. Prokhorov. And so it would be great if it would be 
possible to start the procedure of a special representative, 
something similar to the special rapporteur in the framework of 
the Parliamentary Assembly. But it seems to me that the Russian 
authorities pay much more attention to the framework of the 
Organization for Security and Cooperation in Europe, and where 
the United States is also a member. And so for us it's very 
important--to initiate the procedure of a special 
representative--maybe if it would be possible in these summer 
meetings.
    Mr. Smith. I can promise you we'll try. There are just a 
small number of special reps with the OSCE PA. I'm one of them. 
I do it on combating human trafficking. Our ranking member, Ben 
Cardin, does it on behalf of combating anti-Semitism--so, you 
know, there are just a few, but we will try. I think it's a 
very, very good idea.
    Tied up in the whole case of Boris Nemtsov would be the 
impunity, the assassination, that is just in a league of its 
own. It just tells the whole story because it chills other 
people from speaking out boldly because that could be them. And 
so for Boris himself, we need a full accounting and for all 
parties responsible to be held to account, total transparency, 
and no more of this opaqueness and cover up, but it also has a 
great impact on democracy in Russia itself, at the Duma and 
everywhere else.
    So it is well worth the effort, and we'll do it. And again, 
I think we need to use every tool in the tool box. That's why I 
brought up the Human Rights Council and, not surprisingly, you 
are already talking to people there. We'll do a letter to 
Prince Zeid. I have met with him, like I said before, and very 
often, his office is--well, the pressure should not be that 
they don't look at things because a member state is on the 
Security Council and a very powerful one at that. Injustice is 
injustice wherever it is committed.
    Is there anything else you would like to add--because I 
know one of you do have a plane to catch at five.
    Mr. Kara-Murza. We've covered pretty much everything, Mr. 
Co-Chairman. We'll be really grateful for your leadership at 
the Parliamentary Assembly of the OSCE at the summer session, 
where we're hoping to be, too, so maybe we could do a public 
event or a hearing, and if you need any assistance or any help 
from our side, from the side of the family, friends and 
colleagues of Boris Nemtsov, you will have our full cooperation 
in these matters.
    Mr. Smith. Well, you know, one thing that we might 
consider--a side event with you there might be helpful as well, 
to alert the parliamentarians about this case. There are a lot 
of people who probably have read about it and seen it somewhere 
but, you know, didn't really have the depth that you bring to 
bear on that while we're in Berlin.
    Mr. Kara-Murza. Absolutely, and then an important aspect 
that Vadim has mentioned----
    Mr. Smith. Yes.
    Mr. Kara-Murza.----that, as you know, for the last two 
years, the official Russian delegation has been boycotting the 
Parliamentary Assembly of the Council of Europe--they're not 
actually turning up there. They do turn up, as you know, to the 
OSCE Parliamentary Assembly meetings, so that's something you 
would actually be able to state to their face.
    Mr. Smith. They often show up just to push back on Ukraine 
and the illegal taking of Crimea.
    Mr. Kara-Murza. Well then, how about actually making them 
answer for something they should answer to, and I think that 
would be a very good idea to try to do something in Berlin, and 
I think I can speak for all three of us when I say that if such 
a side event happens, we would be happy to take part, and turn 
up, and do whatever is necessary to try to move this forward.
    Mr. Smith. Thank you.
    Mr. Kara-Murza. Thank you.
    Mr. Smith. Thank you for your courage, tenacity, your 
friendship, your love for your dad.
    We will look forward to following up on all of these 
things, and we will put those letters together right away--you 
know, to the president, to Tillerson, and--because that 
Universal Periodic Review is coming up in May, so it's right 
around the corner. And I think that will be a good place to 
really engage, in addition to all the others.
    The hearing is adjourned, and thank you very much.
    [Whereupon, at 5:03 p.m., the hearing ended.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


   Prepared Statement of Hon. Roger Wicker, Chairman, Commission on 
                   Security and Cooperation in Europe

    The Commission will come to order, and good afternoon to 
everybody.
    We are turning our attention in today's hearing to the loss 
of one of Russia's great democratic reformers, Boris Nemtsov, 
who was gunned down within sight of the Kremlin three years ago 
yesterday. Although the triggermen were apprehended and tried 
for their crime, the masterminds behind it have never been 
identified.
    Our witnesses today are people who knew Boris Nemtsov well. 
I stood beside them yesterday in the ceremony to rename a 
section of Wisconsin Avenue as Boris Nemtsov Plaza. I am also 
very pleased that this hearing will focus on the legacy of 
Boris Nemtsov as Russians prepare to cast their votes in 
another presidential election next month. We are honored to 
have his daughter, Ms. Zhanna Nemtsova, join us to reflect on 
her father's work and the prospects for realizing his dream of 
a free and democratic Russia.
    Ms. Nemtsova is joined by somebody who is no stranger to 
me, the Helsinki Commission, nor the halls of Congress, thanks 
to his tireless work promoting democracy in Russia. Mr. 
Vladimir Kara-Murza knows better than almost anybody about the 
intense--and all too often lethal--pressure being applied to 
brave Russians, like him and Boris Nemtsov, who engage in 
opposition politics. Vladimir directed the documentary film 
Nemtsov, a truly remarkable tribute to Boris that opened in 
Nizhny Novgorod and was screened in Moscow, St. Petersburg, and 
Washington, where many people in this room had a chance to see 
it.
    We are also very fortunate to have Mr. Vadim Prokhorov, the 
lawyer for the Nemtsov family, who has worked for years now to 
see the masterminds of this heinous act brought to justice.
    As I mentioned, yesterday our witnesses participated in the 
naming ceremony for the Boris Nemtsov Plaza. As an American, I 
am proud Washington has held the very first official 
commemoration of Boris Nemtsov anywhere in the world. The 
Russian people should know that we will continue to build 
legislative monuments to their heroes here until those stone 
monuments can be built in Russia.
    Let me also offer a word about the posters on display at 
the front of the room. They serve as a reminder that brave 
Russians have gathered on a regular basis to ask for justice 
for Boris Nemtsov. The photo of these flowers at the site of 
his murder could have been taken virtually any day in the past 
three years. Despite being removed every day, the flowers are 
always replaced the next day by the many people who revere the 
memory of Boris Nemtsov. I think these people deserve to be 
recognized for their devotion to democracy in Russia and for 
their dedication to honoring one of Russia's great democratic 
leaders.
    We hope to accomplish two things at today's hearing.
    First, we want to remind all members of Congress and the 
American public that the democratic freedoms we take for 
granted have been under siege in Russia, at least since 
Vladimir Putin was first elected president in 2000. Until an 
election is declared ``free and fair'' in Russia by credible 
international observers, we will need to revisit this theme, 
letting Russians know they have not been forgotten by their 
friends.
    Secondly, with our witnesses' assistance, we would like to 
evaluate the prospects for delivering justice. Holding the 
perpetrators accountable for Boris Nemtsov's murder is an 
important first step toward providing the security that 
Russians will need to exercise their democratic rights. And 
since justice, at the moment, seems impossible to find inside 
Russia, I would like our witnesses to tell us what the 
international community, specifically the OSCE, can do to bring 
justice for Boris Nemtsov outside of Russia.
    I am convinced now more than ever that a Russia that allows 
for full freedom of expression and free and fair elections will 
be a place where all Russians can prosper. Those improvements 
would also make Russia a much better neighbor, going a long way 
toward promoting peace and security in the entire Eurasian 
region.
    We have a lot to discuss, so I'd like to yield to Senator 
Cardin.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Mr. Chairman, thank you for holding this important hearing 
on slain Russian opposition leader Boris Nemtsov's legacy.

    It is still hard for me to believe that just three years 
ago Boris Nemtsov was assassinated just steps outside the 
Kremlin. Having led a fruitful career in government, Mr. 
Nemtsov refused to cooperate with Vladimir Putin's system of 
authoritarianism unlike many of his peers. Instead, he worked 
tirelessly to defend the fundamental rights of Russian citizens 
and expose corruption within the Putin regime. I am honored to 
have worked with him on some of the Helsinki Commission 
initiatives. He was vital in our work to pass the Magnitsky 
Act, which has become one of our greatest tools in fighting 
corruption in Russia. Mr. Nemtsov was truly a great man of 
courage and conviction. It was exactly this courage that led to 
his untimely assassination. Mr. Nemtsov's murder was shocking 
and outrageous even in a country where violence against human 
rights and democratic activists has become routine. Mr. 
Nemtsov's death was a major loss to the Russian people and all 
those who fight for democracy around the world.

    This past summer five of the men involved in Mr. Nemtsov's 
murder were convicted by Russian courts. One of these men was 
Zaur Dadayev, the gunman who shot four bullets into Mr. 
Nemtsov's back. It is worth noting that Mr. Dadayev served as a 
commander of the Chechen security forces under Chechen leader 
Razman Kadyrov, a close associate of Vladimir Putin. This past 
summer's trial left many questions unanswered. While Mr. 
Dadayev and his accomplices have been punished, the masterminds 
behind the assassination have not been served justice.

    Since rising to power in 2000, Putin has ruled Russia with 
an iron fist. Under Putin, democracy and human rights have 
greatly suffered. Beyond Mr. Nemtsov, many others who have 
spoken up against the Putin regime have been killed under 
dubious circumstances, including investigative journalist Anna 
Politkovskaya, human rights activist Natalya Estemirova, and 
Umar Israilov, just to name a few. In addition, our witness Mr. 
Vladimir Kara-Murza has been subject to two poisoning attempts. 
I've repeatedly stated that Russia is violating each and every 
principle of the Helsinki Final Act's guiding principles. It is 
more important now more than ever that we work to protect 
fundamental human rights in Russia.

    I recall how Boris joined me for a screening of ``Justice 
for Sergei'' in November 2010, and almost immediately after was 
assaulted at the airport upon returning to Russia. His bravery 
and perseverance will remain etched in my memory forever, he 
stood for all Russians having a say in their government, a 
truly fantastic retail politician, in the best sense of the 
word.

    The Russian government is committed to fighting Mr. 
Nemtsov's legacy. I, too, am saddened by the reports that every 
night government workers steal the flowers from Mr. Nemtsov's 
unofficial memorial located at the spot he was killed. Yet Mr. 
Nemtsov's supporters, everyday Russians who believe in a 
brighter future for their country, are not dissuaded and 
replace the stolen flowers every day. Even though Mr. Nemtsov's 
voice may have been silenced by a gunman in Moscow, his words 
will never be forgotten. I will do all in my power to ensure 
his legacy reverberates throughout the world.

    I yield my time to Mr. Smith.

  Prepared Statement of Hon. Chris Smith, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    Good morning, and thank you Chairman Wicker for convening 
this exceptional hearing.
    Yesterday, we commemorated the block of Wisconsin Avenue in 
front of the Russian Embassy as Boris Nemtsov Plaza. With this 
gesture, we hope to signal to those Russians in the tireless 
pursuit of real and lasting democracy in Russia, that their 
friends in the United States have not abandoned them. It was a 
quite the ceremony: remarkable, timely, and something I will 
not soon forget.
    We would be remiss then if we did not take advantage of the 
occasion to remember and discuss Mr. Nemtsov's work, his legacy 
and the possibility of bringing those responsible for his 
assassination to justice. We are fortunate to be joined by an 
esteemed panel of witnesses: Zhanna Nemtsova, his daughter; 
Vadim Prokhorov, the family lawyer; and Vladimir Kara-Murza, 
the chairman of the Boris Nemtsov Foundation for Freedom, and 
no stranger to the Commission. Your thoughts and perspectives 
are invaluable to the Commission, and again, we thank you for 
joining us this afternoon.
    Mr. Nemtsov was no common politician. As a democratic 
activist, he wanted to break through the corruption and 
authoritarianism that has gripped Russia since Vladimir Putin 
took power in 2000. The human rights abuses suffered by the 
people of Russia and those outside of its borders are tragic 
and unacceptable. But, Mr. Nemtsov imagined a greater Russia, a 
Russia made free by an open press, a judicial system governed 
by the rule of law and not the whim of despots, and a Russia 
guided by the premise that Russians ought to have a say in the 
way their government operates. He died a man of great honor and 
courage. May we all endeavor to act on our convictions as he 
did.
    Mr. Nemtsov was not only a politician. He was Zhanna's 
father, and for many of us here, our friend and colleague. We 
may never know who masterminded his murder, but it is without 
doubt that he was slain for his political beliefs.
    Although Boris was taken from us three years ago, the 
outrages against democratic activists continue today. Just 
recently Russian authorities charged the Leader of ``New 
Opposition,'' Mark Galperin, with public incitement to 
extremist actions by means of the internet. Calls to join mass 
public demonstrations or to change the government, without a 
direct indication that this should be done by means of 
violence, are not unlawful and cannot be considered criminal 
offences. As we consider Boris Nemtsov's legacy today, let us 
not forget that democratic activists like Mark Galperin are 
under extreme pressure from the Russian authorities.
    The assassination of this remarkable leader also speaks to 
the need for historic justice. Time, even years, doesn't lessen 
the need for accountability in crimes like this, and addressing 
them is necessary for society to truly move on. This was a key 
lesson I took away from my work on Northern Ireland.
    Boris was killed mere steps from the Kremlin. I have stood 
outside the Kremlin myself and have taken in the incredible 
power and size of that fortress. In many ways, the Kremlin is 
as much a fortress for Putin, cloistering him behind yes men 
and thieves. Wresting Russia from his grasp may seem as 
daunting a task as scaling the Kremlin walls but our friend, 
Mr. Nemtsov believed not only that it could be done, but that 
it must.
    I'd like to take this time to again, thank our esteemed 
witnesses and our friends and guests for joining us here today. 
While the Putin regime did everything in its power to push Mr. 
Nemtsov to the margins of Russian political life, he will not 
be on the margins of our minds and our hearts.
    We have a lot to cover in a short amount of time, so Mr. 
Chairman, I yield my time.

                       <all>




  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
